IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER 2020 TERM
NO. ______
WILLARD MOSS, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner Willard Moss requests permission to file the attached Petition for Writ of
Certiorari without prepayment of costs, and to proceed in forma pauperis. Pursuant to the
provision of the Criminal Justice Act, Petitioner was previously granted leave to proceed in both
the United States District Court for the Northern District of West Virginia and the United States
Court of Appeals for the Fourth Circuit on this case.

WILLARD MOSS
By Counsel

______________________________
Kristen M. Leddy
Assistant Federal Public Defender

